HHS/OIG-Audit--"Review of Costs of Outpatient Clinics at Coral Gables Hospital, (A-04-00-01208)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Costs of Outpatient Clinics at Coral Gables Hospital," (A-04-00-01208)
February 21, 2001
Complete
Text of Report is available in PDF format (555 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This audit report points out that Coral Gables Hospital incorrectly reported certain data in its costs reports for Fiscal
Years 1996 through 1998. These errors occurred in the accounting and recording of financial and statistical data for clinic
activities. A preliminary estimate by the hospital's fiscal intermediary (FI) showed the hospital was overpaid Medicare
funds by $384,295. The inappropriate reporting occurred because the hospital lacked sufficient controls in its accounting
system to ensure that fiscal data for the clinic operations contained no material errors. Moreover, hospital officials
believe that changes in the accounting system contributed to the errors we discovered. We are recommending that the Health
Care Financing Administration direct the hospital's FI to (a) adjust the cost reports to correct the errors for FYs 1996
through 1998 , (b) recover the Medicare overpayments of $384,295, and (c) instruct the hospital to ensure that future cost
reports are prepared free of the types of errors identified during our audit.